Nos. 19-368 and 19-369
IN THE

Supreme Court of the United States
FORD MOTOR COMPANY, Petitioner,
v.
MONTANA EIGHTH JUDICIAL DISTRICT COURT, et al.,
Respondents.
FORD MOTOR COMPANY, Petitioner,
v.
ADAM BANDEMER, Respondent.
On Writs of Certiorari
to the Supreme Court of Montana
and the Supreme Court of Minnesota
BRIEF FOR THE ALLIANCE FOR AUTOMOTIVE
INNOVATION AND GENERAL AVIATION
MANUFACTURERS ASSOCIATION AS AMICI
CURIAE IN SUPPORT OF PETITIONER
DARRYL M. WOO
GOODWIN PROCTER LLP
Three Embarcadero Center
San Francisco, CA 94111
(415) 733-6000

JAIME A. SANTOS
Counsel of Record
STEPHEN R. SHAW
GOODWIN PROCTER LLP
1900 N St., NW
Washington, DC 20036
jsantos@goodwinlaw.com
(202) 346-4000

Counsel for Amici Curiae
March 6, 2020

TABLE OF CONTENTS
Page
INTEREST OF THE AMICI CURIAE ...................... 1
SUMMARY OF THE ARGUMENT ........................... 3
ARGUMENT............................................................... 6
I.

The decisions of the Minnesota and
Montana Supreme Courts erase the
clear line between general and specific
personal jurisdiction. ................................... 6

II.

This Court should reject respondents’
unlimited stream-of-commerce theory. ..... 12

III.

Respondents’ no-causation rule will
create massive uncertainty and
increase litigation over threshold
jurisdictional issues. .................................. 22

IV.

Respondents’ rule would have a
particularly pernicious impact on
foreign manufacturers. .............................. 24

CONCLUSION ......................................................... 29

i

TABLE OF AUTHORITIES
Page(s)
Cases
Bristol-Myers Squibb Co. v. Superior Court of
Cal.,
137 S. Ct. 1773 (2017) ...................................passim
Burger King Corp. v. Rudzewicz,
471 U.S. 462 (1985) .......................................... 6, 12
Daimler AG v. Bauman,
571 U.S. 117 (2014) .................. 2, 5, 7, 8, 12, 26, 27
D’Jamoos ex rel. Estate of Weingeroff v.
Pilatus Aircraft Ltd.,
566 F.3d 94 (3d Cir. 2009) ....... 2, 16, 17, 18, 20, 21
Goodyear Dunlop Tires Operations, S.A. v.
Brown,
564 U.S. 915 (2011) ........................................ 6, 7, 8
Helicopteros Nacionales de Colombia, S.A. v.
Hall,
466 U.S. 408 (1984) .................................... 8, 11, 26
Int’l Shoe Co. v. Washington,
326 U.S. 310 (1945) ........................................ 6, 7, 8
J. McIntyre Mach., Ltd. v. Nicastro,
564 U.S. 873 (2011) .............................. 5, 13, 14, 20
Montgomery v. Airbus Helicopters, Inc.,
414 P.3d 824 (Okla. 2018)...................................... 2

Societe Nationale Industrielle Aerospatiale v.
U.S. Dist. Court for S. Dist. of Iowa,
482 U.S. 522 (1987) .............................................. 27
Walden v. Fiore,
571 U.S. 277 (2014) .......................... 6, 7, 11, 19, 20
World-Wide Volkswagen Corp. v. Woodson,
444 U.S. 286 (1980) ...................... 15, 19, 20, 21, 22
Other Authorities
14 C.F.R. pt. 21, subpt. D .......................................... 18
Joshua B. Arons, Tesla’s Right to Rise,
44 Transp. L.J. 133 (2017) ................................... 19
Associated Press, Driving an Older Car? You’re
Not Alone. Average Vehicle Age Sets a
Record, Autoblog (June 27, 2019, 8:30 a.m.),
https://www.autoblog.com/2019/06/27/recordaverage-age-cars-on-road/ .................................... 15
Julie Blackley, Longest-Lasting Cars to
Reach 200,000 Miles and Beyond,
iSeeCars (last visited Mar. 5, 2019),
https://www.iseecars.com/longest-lastingcars-study ............................................................. 16
Gerald R. Bodisch, Economic Effects of State
Bans on Direct Manufacturer Sales to Car
Buyers, Economic Analysis Group (May
2009), https://www.justice.gov/atr/economiceffects-state-bans-direct-manufacturersales-car-buyers ................................................... 19

Mark Cooper, Bringing New Auto Sales and
Service into the 21st Century, Consumer
Fed’n of Am. (Oct. 2002), https://consumer
fed.org/pdfs/InternetAutos102902.pdf ................ 19
General Aviation Manufacturers Association,
2019 Databook (Feb. 2020), https://gama.aero
/wp-content/uploads/GAMA _2019Databook_
ForWebFinal-2020-02-19.pdf ............................... 16
Geoffrey C. Hazard, Jr., Discovery and the Role
of the Judge in Civil Law Jurisdictions, 73
Notre Dame L. Rev. 1017 (1998) ......................... 27
Information Collection for Importation of OnHighway Vehicles and Motorcycles and
Nonroad Engines, Vehicles, and Equipment,
84 Fed. Reg. 63,653 (Nov. 18, 2019) .................... 25
Office of Transp. & Mach., U.S. Dep’t of
Commerce, U.S. Imports of Used Passenger
Vehicles Imports, Value and Units,
https://legacy.trade.gov/td/otm/assets/auto/
Used_Passenger_Imports.pdf (last visited
Mar. 6, 2020) ........................................................ 25
Purchase Planning Handbook, Business &
Commercial Aviation (May 2017),
http://assets.penton.com/digitaleditions/B
CA/BCA_201705.pdf ............................................ 16

Michael Schultz et al., U.S. Consumer & Economic Impacts of U.S. Automotive Trade Policies, Ctr. for Auto. Research (Feb. 2019),
https://www.cargroup.org/wp-content/uploads/2019/02/US-Consumer-Economic-Impacts-of-US-Automotive-Trade-Policies-.pdf....... 24
U.S. Dep’t of Commerce, The U.S. Litigation
Environment and Foreign Direct Investment:
Supporting U.S. Competitiveness by Reducing
Legal Costs and Uncertainty,
https://legacy.trade.gov/investamerica/Litiga
tion_FDI.pdf (Oct. 2008) ...................................... 28
U.S. EPA, Independent Commercial Importers
(ICIs), https://www.epa.gov/importing-vehiclesand-engines/independent-commercialimporters-icis (last visited Mar. 6, 2020) ............ 25
2 Waller, Antitrust & Am. Bus. Abroad
(4th ed. 2018)........................................................ 27

INTEREST OF THE AMICI CURIAE
The Alliance for Automotive Innovation (Auto Innovators) is the leading advocacy group for the auto
industry, representing 35 automobile manufacturers
and value chain partners who together produce nearly
99 percent of all light-duty vehicles sold in the United
States. 1 The members of Auto Innovators include (alphabetically) Aptiv PLC, Aston Martin, Robert Bosch
LLC, BMW Group, Byton, Cruise LLC, DENSO, Fiat
Chrysler Automobiles, Ferrari S.p.A., Ford Motor
Company, General Motors Company, Honda Motor
Company, Hyundai Motor America, Isuzu Motors
Ltd., Jaguar Land Rover, Karma Automotive, Kia Motors, Local Motors, Maserati, Mazda Motor Corporation, McLaren Automotive, Mercedes-Benz USA,
Mitsubishi Motors, Nissan Motor Company, NXP
Semiconductors, Panasonic Corporation, Porsche,
PSA North America, SiriusXM, Subaru, Suzuki,
Texas Instruments, Toyota Motor Company,
Volkswagen Group of America, and Volvo Car USA.
The General Aviation Manufacturers Association
(GAMA) is an international trade association representing over 120 of the world’s leading manufacturers
of general aviation aircraft, engines, avionics, and
components, as well as operators of maintenance facilities, fixed-base operators, aircraft fleets, and pilot
and technician training facilities. Throughout its
fifty-year history, GAMA has been dedicated to
The parties consented to the filing of this brief. No counsel for
a party authored any part of this brief; no party or party’s counsel
made a monetary contribution intended to fund the preparation
or submission of this brief; and no person other than amici curiae, its members, or its counsel made a monetary contribution
to the brief’s preparation or submission.
1

2
fostering and advancing the welfare, safety, interests,
and activities of the global general aviation industry.
General aviation encompasses all civilian flying except scheduled commercial transport and includes
business travel, medical transport, aerial firefighting,
law enforcement, flight training, aerial agricultural
services, surveying, and search and rescue. GAMA’s
members make nearly all of the general aviation aircraft flying today, from small, single-engine propeller
plans to large jets to twin-turbine helicopters.
Automobile and general aviation manufacturers
are responsible for billions in economic outputs and
millions of jobs in the United States; moreover, they
are essential to the country’s transportation infrastructure. Amici aim to protect and promote the legal
and policy interests of its members and frequently file
amicus curiae briefs in cases such as this one that are
important to the automobile and aviation industries.
See, e.g., Avco Corp. v. Sikkelee, No. 18-1140 (U.S.);
Daimler AG v. Bauman, 571 U.S. 117 (2014).
Amici’s members include global companies that design, manufacture, and sell vehicles in various parts
of the country—indeed, the world. Because vehicles
like cars, trucks, and aircraft are durable and easily
portable by design, amici’s members frequently face
product litigation in forums throughout the United
States. Like Ford’s cases before this Court, specific
personal jurisdiction is a significant and recurring
question in vehicle accident litigation. See also, e.g.,
D’Jamoos ex rel. Estate of Weingeroff v. Pilatus Aircraft Ltd., 566 F.3d 94 (3d Cir. 2009); Montgomery v.
Airbus Helicopters, Inc., 414 P.3d 824 (Okla. 2018).
The question presented is therefore of significant importance to amici’s members. Amici therefore write to

3
emphasize the potential impacts of the Court’s resolution of this question on the broader automotive industry (including foreign manufacturers) and beyond.
SUMMARY OF THE ARGUMENT
Specific personal jurisdiction cannot exist where
the “conduct giving rise” to the plaintiff’s claims occurred outside of the forum State. Bristol-Myers
Squibb Co. v. Superior Court of Cal., 137 S. Ct. 1773,
1782 (2017) (“BMS”). That is what puts the “specific”
in “specific personal jurisdiction.” If this due-process
requirement means anything, it must mean that a
plaintiff may not hale a nonresident defendant into
court for its out-of-state conduct, based on forum contacts that are irrelevant to her claims.
But the Montana and Minnesota Supreme Courts
held exactly the opposite. Both courts acknowledged
that the plaintiffs’ design-defect claims against Ford
are based on out-of-state conduct—the plaintiffs’ vehicles were not designed, manufactured, or sold in these
States, and the only reason the vehicles ended up in
these States was through the unilateral decisions of
individuals who had purchased the vehicles “used” a
decade or more after the vehicles were initially manufactured and sold. But they concluded that Montana
and Minnesota courts could exercise jurisdiction over
Ford as a result of other contacts Ford had with those
States, such as advertising activities and the existence of Ford-franchised dealerships that had sold
other vehicles to non-parties in those States. Thus,
under a specific personal jurisdiction analysis, they
incorrectly held that the courts of these States could
adjudicate claims that would be exactly the same even
if the defendant’s forum activities had never occurred.

4
This error is of substantial importance to business,
particularly industries like amici’s. The no-causation
standard adopted by Montana and Minnesota exposes
automotive and general aviation manufacturers, as
well as other companies that manufacture durable
and easily movable products, to nationwide specific
personal jurisdiction on the basis of generalized connections they share with each and every State in the
country. These decisions erase the clear line that this
Court has maintained between general and specific
personal jurisdiction, eviscerating the due-process
protections on which the latter is premised. A core
principle driving specific personal jurisdiction is that
defendants’ own voluntary, affirmative actions directed at the forum and the lawsuit are what render
them liable to suit. The approach adopted by Montana and Minnesota upends this Court’s precedents
and puts plaintiffs in the personal-jurisdiction driver’s
seat.
Just as troubling, the no-causation, stream-of-commerce standard advocated by respondents creates
more questions than it provides answers, particularly
for long-life products, like automobiles and aircraft,
that are sold and resold for decades. If independent
dealers and general connections (like advertising and
sales), coupled with a mere expectation of in-state use,
are sufficient to confer jurisdiction over product-liability claims, are those connections assessed as of the
time of design and manufacture (which may have occurred over 30 years earlier), the time of plaintiffs’ injury, or the time the lawsuit was filed? How pervasive
must these contacts be and what types are sufficient?
Would nationwide advertising that happens to appear
in the State be enough? Attendance at in-state trade

5
shows? Sending federally mandated safety information to an aircraft owner wherever she happens to
live? And would relevant advertisements and sales be
limited to the product that is the subject of the product-liability lawsuit, or merely similar (or even dissimilar) products?
If respondents’ standard is adopted, these complicated questions will occupy state and federal courts
for decades, creating the very unpredictability the
personal-jurisdiction requirement is supposed to
avoid. This unpredictability is particularly acute for
foreign defendants. Under respondents’ rule, a plaintiff could force a foreign company to answer product
claims in U.S. courts so long as the plaintiff can identify some U.S. conduct by the defendant that is peripherally related to that product—even if the U.S. conduct had no impact whatsoever on the plaintiff’s
claims and even if the foreign company’s product entered the United States through the unilateral decision of a consumer or importer. That cannot be right.
As this Court has repeatedly emphasized, jurisdiction
over foreign entities must be grounded in their specific
activities related to the suit at issue and not generalized activities incidentally affecting the forum. See J.
McIntyre Mach., Ltd. v. Nicastro, 564 U.S. 873, 88687 (2011) (plurality opinion); Daimler AG v. Bauman,
571 U.S. 117, 127 (2014). Under principles of interstate federalism, this constitutional limit on a State’s
exercise of jurisdiction must stand even if the State
“has a strong interest in applying its law to the controversy” and “is the most convenient location for litigation.” BMS, 137 S. Ct. at 1780-81 (citation omitted).
This Court should reverse the judgments below, reaffirm these longstanding principles (most recently

6
reiterated in BMS), and hold that specific personal jurisdiction requires a causal link between a defendant’s
forum contacts and a plaintiff’s specific claims.
ARGUMENT
I.

The Decisions of the Minnesota and Montana Supreme Courts Erase the Clear
Line Between General and Specific Personal Jurisdiction.

The Due Process Clause “sets the outer boundaries
of a state tribunal’s authority to proceed against a defendant,” permitting States to exercise personal jurisdiction only where the defendant has “certain minimum contacts with [the State] such that the maintenance of the suit does not offend ‘traditional notions of
fair play and substantial justice.’” Goodyear Dunlop
Tires Operations, S.A. v. Brown, 564 U.S. 915, 923
(2011) (quoting Int’l Shoe Co. v. Washington, 326 U.S.
310, 316 (1945)). The relationship between a defendant and a State “must arise out of contacts that the
‘defendant himself’ creates with the forum,” because
“[d]ue process limits on the State’s adjudicative authority principally protect the liberty of the nonresident defendant—not the convenience of plaintiffs or
third parties.” Walden v. Fiore, 571 U.S. 277, 284
(2014) (quoting Burger King Corp. v. Rudzewicz, 471
U.S. 462, 475 (1985)).
This Court has recognized two varieties of personal
jurisdiction: “‘general’ (sometimes called ‘all-purpose’)
jurisdiction and ‘specific’ (sometimes called ‘caselinked’) jurisdiction.” BMS, 137 S. Ct. at 1780 (citation omitted). General jurisdiction derives from the
nature of the overall relationship between the

7
defendant and the State based on “continuous and
systematic” connections rising to the level of being “at
home” in the jurisdiction, Daimler, 571 U.S. at 137-38;
it enables a State to exercise jurisdiction over a defendant independent of any connection between the
defendant’s forum-related contacts and the suit at issue, Int’l Shoe, 326 U.S. at 317.
Specific jurisdiction, however, is predicated on an
“affiliatio[n] between the forum and the underlying
controversy,” and it primarily relies on suit-related
conduct that occurred in or was directed toward the
forum State. Goodyear, 564 U.S. at 919 (citation omitted). Specific jurisdiction “focuses on ‘the relationship
among the defendant, the forum, and the litigation,’”
with particular attention paid to “the defendant’s suitrelated conduct.” Walden, 571 U.S. at 284 (citation
omitted).
Courts have occasionally blended these disparate
doctrines into a hybrid analysis that allows them to
exercise jurisdiction over a defendant when neither
the general nor specific jurisdictional requirement is
satisfied. Just as often, this Court has rejected these
attempts, insisting on a clear demarcation between
general and specific jurisdiction. In Goodyear Dunlop
Tires Operations, S.A. v. Brown, 564 U.S. 915 (2011),
for example, this Court rejected a North Carolina
court’s approach that “[c]onfus[ed] or blend[ed] general and specific jurisdictional inquiries.” Id. at 91920. Even more recently, in BMS, this Court considered the California Supreme Court’s application of a
“sliding scale approach” to specific jurisdiction
whereby “the more wide ranging the defendant’s forum contacts, the more readily is shown a connection
between the forum contacts and the claim.” 137 S. Ct.

8
at 1778 (citation omitted). This Court categorically
rejected such an approach, calling it “a loose and spurious form of general jurisdiction” with “no support” in
the Court’s cases. Id. at 1781. Similarly, this Court
has expressed serious concern with any personal-jurisdiction test that would create “all-purpose jurisdiction” in any State in which a defendant sells a significant number of products. Daimler, 571 U.S. at 139.
In short, this Court has consistently maintained a
clear line between general and specific bases for personal jurisdiction. For general jurisdiction, a defendant’s general contacts with a forum State are relevant,
but they must be so continuous and systematic that
the defendant can be deemed “at home” there. Id. at
137. For specific jurisdiction, a defendant’s activities
within the forum State are relevant only if the causes
of action asserted in the complaint arise out of or relate to those activities. Goodyear, 564 U.S. at 923
(specific personal jurisdiction exists “where the corporation’s in-state activity is ‘continuous and systematic’
and that activity gave rise to the episode-in-suit” (citation omitted)); Daimler, 571 U.S. at 127 (in-state activities “may sometimes be enough to subject the corporation to jurisdiction in that State’s tribunals with
respect to suits relating to that in-state activity” (citation omitted)); Int’l Shoe, 326 U.S. at 320 (personal jurisdiction existed because the defendant engaged in
in-state activities, and “[t]he obligation which is here
sued upon arose out of those very activities”). Thus,
as this Court has explained, “even regularly occurring
sales of a product in a State do not justify the exercise
of jurisdiction over a claim unrelated to those sales.”
Goodyear, 564 U.S. at 930 n.6 (emphasis added); Helicopteros Nacionales de Colombia, S.A. v. Hall, 466

9
U.S. 408, 418 (1984) (“mere purchases, even if occurring at regular intervals, are not enough to warrant a
State’s assertion of in personam jurisdiction over a
nonresident corporation in a cause of action not related to those purchase transactions” (emphasis
added)).
Here, all parties agree that Ford is not subject to
general jurisdiction in Montana or Minnesota. The
plaintiffs’ lawsuits are based on alleged defects in the
design or manufacture of their Ford vehicles. But
Ford did not design the plaintiffs’ vehicles in Montana
or Minnesota, manufacture the plaintiffs’ vehicles in
Montana or Minnesota, or even sell the plaintiffs’ vehicles in Montana or Minnesota. Nevertheless, the
Montana and Minnesota Supreme Courts held that
despite the cases being about the design and manufacture of the vehicles, the state courts could exercise
specific personal jurisdiction over Ford in these lawsuits because Ford sold other vehicles to other individuals, advertised in those States, partnered with dealerships in those States, offered repair or replacement
services in those States, and could reasonably have
foreseen its products being used in those States. 19368 Pet. App. 11a-12a, 16a-17a, 19a-20a; 19-369 Pet.
App. 9a-10a, 16a-17a.
The state high courts considered Ford’s forum activities sufficient to exercise specific personal jurisdiction even though those activities did not give rise to
the plaintiffs’ claims and the plaintiffs would have experienced the exact same injuries had Ford not engaged in any of those activities in Montana or Minnesota. This approach is similar to a general personaljurisdiction analysis, but without the critical due-process-protecting requirement that the defendant’s

10
forum-related contacts are so systematic and continuous that the defendant can be considered at home
there and thus can reasonably be expected to be haled
into court there for any dispute that arises.
By basing the exercise of personal jurisdiction on
acts for which there is no nexus to the claims, these
decisions resemble the sliding-scale approach that
this Court expressly rejected in BMS, 137 S. Ct. 1773.
There, California residents and nonresidents sued
Bristol-Myers Squibb in California, alleging that the
company’s drug Plavix had injured them. The company had research and laboratory facilities in California, employed hundreds of employees and sales representatives there, and sold 187 million Plavix pills in
the State. Applying the principle that “the more wide
ranging the defendant’s forum contacts, the more
readily is shown a connection between the forum contacts and the claim,” the court held that the company’s
“extensive contacts with California” warranted exercising jurisdiction over all of the plaintiffs’ claims. Id.
at 1778-79 (citations omitted). In particular, the court
relied upon the similarity of the residents’ and nonresidents’ claims, as they were “based on the same allegedly defective product and the assertedly misleading marketing and promotion of that product.” Id. at
1779 (citation omitted).
This Court rejected the California Supreme
Court’s approach, calling it a “loose and spurious form
of general jurisdiction. For specific jurisdiction, a defendant’s general connections with the forum are not
enough.” Id. at 1781. The Court stated that “[t]he
mere fact that other plaintiffs were prescribed, obtained, and ingested Plavix in California—and allegedly sustained the same injuries as did the

11
nonresidents”— did not allow plaintiffs whose claims
did not arise as a result of the defendant’s Californiarelated activities to sue Bristol-Myers Squibb in the
State because “a defendant’s relationship with a . . .
third party, standing alone, is an insufficient basis for
jurisdiction.” Id. (quoting Walden, 571 U.S. at 286).
The same is true here. Just as Bristol-Myers
Squibb’s sales of 187 million Plavix pills in California
did not permit every plaintiff to sue the company
there, Ford’s sales of similar—or even identical—vehicles to other Montana and Minnesota residents does
not mean that Ford can be haled into court there to
litigate claims over vehicles that the company sold in
Washington and North Dakota.
The Montana and Minnesota Supreme Courts both
said that BMS was distinguishable because the nonresident plaintiffs in BMS neither used nor were injured by Plavix in California, whereas here, the allegedly defective vehicles were used and caused injuries
in Montana and Minnesota. 19-368 Pet. App. 18a; 19369 Pet. App. 17a. But that disregards this Court’s
instruction that “mere injury to a forum resident” is
not enough. Walden, 571 U.S. at 290. That is because
a plaintiff’s or third party’s “unilateral” actions connecting the dispute to the forum are “not an appropriate consideration” when considering whether personal
jurisdiction exists over a defendant. Helicopteros, 466
U.S. at 417. This due-process limitation on a forum
State’s jurisdiction exists to protect defendants’
rights, not plaintiffs’. See Walden, 571 U.S. at 285
(“Put simply, however significant the plaintiff’s contacts with the forum may be, those contacts cannot be
‘decisive in determining whether the defendant’s due
process rights are violated.’” (citation omitted)).

12
The vehicles at issue in this case ended up in Montana and Minnesota not because of any action by Ford,
but because subsequent owners decided to move there
more than a decade after Ford sold the vehicles in
Washington and North Dakota. Because third parties, and not Ford, are responsible for the presence of
these vehicles in Montana and Minnesota, the fact
that the vehicles were used in these States cannot be
a jurisdictionally relevant contact with respect to
claims based on Ford’s out-of-state conduct.
The rule embraced by the Montana and Minnesota
Supreme Courts exposes manufacturers to jurisdiction based on actions that are entirely out of their control—consumers’ unilateral decisions about where to
transport products they purchase. It allows plaintiffs
whose claims are not based on a defendant’s in-state
contacts to piggyback off of the personal jurisdiction
that other plaintiffs might have, which is precisely
what BMS forbids. 137 S. Ct. at 1781. And because
it does not permit defendants “to structure their primary conduct with some minimum assurance as to
where that conduct will and will not render them liable to suit,” it creates precisely the type of nationwide
“all-purpose” jurisdiction that this Court has repeatedly eschewed. Daimler, 571 U.S. at 139 (quoting
Burger King, 471 U.S. at 472).
II.

This Court Should Reject Respondents’
Unlimited Stream-of-Commerce Theory.

Respondents’ no-causation test leans heavily upon
a stream-of-commerce theory of specific personal jurisdiction. Gullett Br. in Opp. 1, 3, 5, 6, 7, 8, 9, 10, 11,
14, 16, 17, 21, 22, 24. But this Court rejected this very
theory—or, as a plurality called it, this “metaphor”—

13
less than ten years ago in J. McIntyre Machinery, Ltd.
v. Nicastro, 564 U.S. 873, 886 (2011) (plurality opinion); see also id. at 889 (Breyer, J., concurring in the
judgment).
A. In J. McIntyre, a New Jersey resident was injured in New Jersey by a metal-shearing machine
manufactured in England. Id. at 878 (plurality opinion). The manufacturer (J. McIntyre) had engaged an
independent U.S. distributor to sell its machines in
the United States and did not directly sell its machines to buyers in this country. Id.
The New Jersey Supreme Court allowed suit in
New Jersey, relying on a hodgepodge of contacts with
no causal relationship to the plaintiffs’ claims to conclude that the “stream-of-commerce doctrine of jurisdiction” warranted calling J. McIntyre into New Jersey courts. Id. at 879 (citation omitted). Although the
New Jersey Supreme Court noted that it could “not
find that J. McIntyre had a presence or minimum contacts in this State . . . that would justify a New Jersey
court to exercise jurisdiction in this case,” it held that
personal jurisdiction was appropriate because J.
McIntyre “knew or reasonably should have known
that its products are distributed through a nationwide
distribution system that might lead to those products
being sold in any of the fifty states” and “failed to take
some reasonable step to prevent the distribution of its
products in [New Jersey].” Id. at 879, 886 (quotation
marks omitted).
This Court reversed, with six Justices rejecting the
stream-of-commerce argument advanced by the plaintiff. A plurality of the Court reaffirmed the “general
rule” that “the exercise of judicial power is not lawful

14
unless the defendant purposefully avails itself of the
privilege of conducting activities within the forum
State” and concluded that “the so-called ‘stream-ofcommerce’ doctrine cannot displace it.” Id. at 877-78
(plurality opinion) (citation and internal quotation
marks omitted). The plurality criticized the “deficiencies” of the malleable “stream of commerce” metaphor
and clarified that “[a] defendant’s actions, not his expectations, empower a State’s courts to subject him to
judgment.” Id. at 881, 883. Likewise, Justice Breyer,
joined by Justice Alito, noted in his concurring opinion
the Court’s longstanding skepticism about the notion
that placing one’s goods in the stream of commerce,
“fully aware (and hoping) that . . . a sale will take
place,” can constitute an adequate basis for jurisdiction. Id. at 888-89.
Respondents, however, would look to reprise the
stream-of-commerce theory as an independent basis
for personal jurisdiction—a position other courts have
rightly rejected. Under respondents’ theory, a defendant with some forum contacts can be subject to specific
personal jurisdiction by simply delivering its products
into the stream of commerce and manifesting a desire
or intention to reach consumers in any particular
State—even if the defendant’s forum contacts have no
relationship to the plaintiff’s specific claims. Gullett
Br. in Opp. 3, 5, 8. Indeed, both Ford vehicles in this
case were sold to respondents not by Ford or even an
independent Ford dealership, but on the used-vehicle
market (after being sold and resold four or five times).
Thus, not only were their design-defect claims not
causally related to any forum activities by Ford, the
purchase of their vehicles was not even causally related to any forum activities by Ford.
Under

15
respondents’ theory, however, taking actions to
“serv[e] a particular forum” is sufficient to confer specific personal jurisdiction over any product-litigation
claims that a plaintiff might want to assert as long as
a plaintiff happened to bring her vehicle (sold elsewhere) to that forum. Id. at 3. That theory deletes
the arise-out-of-or-relate-to requirement entirely in
favor of a purposeful-availment-only test.
B. If the stream-of-commerce “metaphor” has any
continuing viability, it is certainly not as an independent source of specific personal jurisdiction. At most, it
should be limited to allowing specific personal jurisdiction in the forum where the defendant places the
relevant product into the stream of commerce—not anywhere the product might end up, even years (or decades) down the line. The experience of automobile and
general aviation manufacturers demonstrates why.
Automobiles and aircraft are uniquely durable and
inherently mobile. As this Court has recognized, “the
very purpose of an automobile is to travel”; vehicles
frequently cross state lines with no notice given to
their manufacturers. World-Wide Volkswagen Corp.
v. Woodson, 444 U.S. 286, 298 (1980). And they do so
for decades: the average age of cars and light trucks
in this country exceeds 11 years, 2 and if properly
maintained, vehicles can easily last 200,000 miles or

Associated Press, Driving an Older Car? You’re Not Alone. Average Vehicle Age Sets a Record, Autoblog (June 27, 2019, 8:30
a.m.), https://www.autoblog.com/2019/06/27/record-average-agecars-on-road/.
2

16
more. 3 The same is true for aircraft. The average age
of a single-engine piston aircraft is 46.8 years; for a
multi-engine piston aircraft, the average age is 44.7
years old; and the average age of the entire U.S. general aviation fleet is 38.1 years. 4 General aviation aircraft fly over 25.5 million flight hours annually. 5
Some small, single-engine piston aircraft can fly over
500 nautical miles in one flight; a jet may traverse the
entire country in a single flight over the course of a
few hours. 6
Moreover, both automobiles and aircraft are frequently sold second-hand, third-hand, and even
fourth-hand by private individuals or dealers unaffiliated with the manufacturer and even in a different
country than the product was manufactured or originally sold. The Third Circuit’s decision in D’Jamoos
ex rel. Estate of Weingeroff v. Pilatus Aircraft Ltd., 566
F.3d 94 (2009), provides a useful illustration. There,
a plaintiff filed a product-liability lawsuit in Pennsylvania against the aircraft manufacturer, a Swiss company. Id. at 99. The aircraft had been designed and
manufactured in Switzerland and originally sold to a
French buyer, which resold it to another Swiss company, which resold it to a Massachusetts company,
which imported the plane into the United States and
Julie Blackley, Longest-Lasting Cars to Reach 200,000 Miles
and Beyond, iSeeCars (last visited Mar. 5, 2019),
https://www.iseecars.com/longest-lasting-cars-study.
4 General Aviation Manufacturers Association, 2019 Databook 25
(Feb. 2020), https://gama.aero/wp-content/uploads/GAMA _2019
Databook_ForWebFinal-2020-02-19.pdf (“GAMA Databook”).
5 GAMA Databook 20.
6 See, e.g., Purchase Planning Handbook 83, 94, Business & Commercial Aviation (May 2017), http://assets.penton.com/digitaleditions/BCA/BCA_201705.pdf.
3

17
sold it to a Rhode Island company. Id. The aircraft
was flown to Pennsylvania, where it tragically
crashed. Id. at 98.
Ford’s cases are similar. The two vehicles at issue
in these cases were 21 and 19 years old, respectively,
at the time they crashed. 19-368 Pet. App. 3a; 19-369
Pet. App. 3a. Both vehicles had been resold without
the manufacturers’ involvement, and brought into the
forum States by individuals who were not the original
purchasers of the vehicles and who were not the plaintiffs in either of these actions. 19-368 Pet. App. 24a;
19-369 Pet. App. 25a. And while the Montana and
Minnesota Supreme Courts suggested that jurisdiction was not the result of the plaintiffs’ unilateral decisions but rather Ford’s general in-state contacts, all
of the contacts between Ford and the forum States
that the Montana and Minnesota Supreme Courts relied upon to support specific personal jurisdiction are
present in exactly the same way in virtually every
State in the country, which means that the approach
taken by these courts would subject manufacturers
like Ford to “all-purpose” jurisdiction nationwide.
First, the courts noted that Ford sold vehicles and
parts in Minnesota and Montana, including the types
of vehicles at issue in these cases. 19-368 Pet. App.
12a, 17a, 19a; 19-369 Pet. App. 4a, 9a-10a. But there
are no local or regional automobile or aviation manufacturers in the United States. And this Court has
already stated that even millions of in-state sales do
not permit jurisdiction over manufacturers with respect to claims about even identical products the manufacturers sold elsewhere. See BMS, 137 S. Ct. at
1778, 1781-82. Thus, Ford’s sales of other vehicles

18
simply cannot justify the exercise of specific personal
jurisdiction over claims unrelated to those sales. 7
Second, the courts emphasized that Ford engaged
in regional and national marketing campaigns that
reach Minnesota and Montana residents. 19-368 Pet.
App. 11a, 17a, 29a-30a; 19-369 Pet. App. 4a, 9a, 10a,
17a. But even putting aside that the plaintiffs’ claims
did not arise from nor were related to Ford’s advertising, these same facts exist in every other State too.
Automobile and aviation manufacturers typically issue nationwide and regional advertisements across
the country because they distribute vehicles in every
State. And this Court has rejected efforts to premise
personal jurisdiction on these types of nationwide advertising efforts—even where the plaintiffs asserted
misleading-advertising claims. See BMS, 137 S. Ct.
at 1778; id. at 1784, 1786 (Sotomayor, J., dissenting).
Third, the courts focused on the existence of Ford
dealerships and certified mechanics in Montana and
Minnesota. 19-368 Pet. App. 11a, 12a; 19-369 Pet.
App. 4a, 9a, 16a-17a. But the courts’ reliance on instate Ford dealerships ignores that these dealerships
are independently owned and operated by franchisees.
Virtually every State in America prohibits automobile
manufacturers with franchisees from engaging in
7 Indeed, the courts’ erroneous analysis is particularly problematic for intensely regulated industries like amici’s. As the court
in Pilatus noted, aircraft are designed pursuant to federal design
standards, 566 F.3d at 103, which cannot be changed without
further federal approvals, see 14 C.F.R. pt. 21, subpt. D. Similarly, even without pre-market approval requirements, automotive vehicles are subject to extensive regulation, resulting in the
same product being sold in other states.

19
direct-to-consumer automobile sales. 8 Moreover, this
Court has repeatedly held that “a defendant’s relationship with a . . . third party, standing alone, is an
insufficient basis for jurisdiction,” Walden, 571 U.S. at
286; see BMS, 137 S. Ct. at 1783 (Bristol-Myers
Squibb’s relationship with an in-state pharmaceutical
distributor was not sufficient to establish specific personal jurisdiction in California). Thus, a vehicle manufacturer’s affiliation with non-parties (such as mechanics or dealerships) is simply irrelevant to the personal-jurisdiction analysis.
Fourth, the Montana and Minnesota Supreme
Courts relied heavily upon the foreseeability that the
plaintiffs’ vehicles could have been brought to these
States and Ford’s expectation that residents of these
States will purchase Ford vehicles. See 19-368 Pet.
App. 16a; id. at 13a & n.4, 17a; 19-369 Pet. App. 9a10a, 17a. But these vehicles reached Montana and
Minnesota through no act of Ford’s, and this Court
has previously expressed serious concern with any jurisdictional test that would allow personal jurisdiction
in a product-liability case to follow the product itself,
rather than hinge on the defendant’s contacts with the
forum State related to the specific claims at issue. As
the Court put it in World-Wide Volkswagen, “If
See Mark Cooper, Bringing New Auto Sales and Service into the
21st Century 3, Consumer Fed’n of Am. (Oct. 2002), https://consumerfed.org/pdfs/InternetAutos102902.pdf; Gerald R. Bodisch,
Economic Effects of State Bans on Direct Manufacturer Sales to
Car Buyers, Economic Analysis Group 1 (May 2009),
https://www.justice.gov/atr/economic-effects-state-bans-directmanufacturer-sales-car-buyers; see also Joshua B. Arons, Tesla’s
Right to Rise, 44 Transp. L.J. 133 (2017) (detailing Tesla’s efforts
to sell electric vehicles directly to consumers and the numerous
lawsuits these efforts have sparked under state franchise laws).
8

20
foreseeability were the criterion, . . . [e]very seller of
chattels would in effect appoint the chattel his agent
for service of process.” 444 U.S. at 296. This is particularly true for products like automobiles and aircraft: manufacturers often have no knowledge of
where products will wind up decades later.
Finally, the Montana and Minnesota Supreme
Courts’ decisions relied on general notions of fairness
and convenience. See, e.g., 19-368 Pet. App. 20a-21a;
19-369 Pet. App. 7a, 18a-20a. But this Court has rejected reliance on these considerations: “[d]ue process
limits on the State’s adjudicative authority principally
protect the liberty of the nonresident defendant—not
the convenience of plaintiffs or third parties.” Walden, 571 U.S. at 284. That is because, under the federalism principles that underlie these due-process
limits, “[f]reeform notions of fundamental fairness divorced from traditional practice cannot transform a
judgment rendered in the absence of authority into
law.” J. McIntyre, 564 U.S. at 880 (plurality opinion).
Thus, courts may not “excuse[]” these jurisdictional
prerequisites even if “the plaintiff would suffer substantial hardship if forced to litigate in a foreign forum.” Id. at 883.
Ultimately, the respondents’ stream-of-commerce
theory has no limiting principle—particularly for
manufacturers of inherently mobile and durable products, like automobiles and aircraft. If this Court endorses that theory at all as a viable basis for specific
personal jurisdiction, it should strictly limit it to the
forum in which the manufacturer actively participated within the stream of commerce. That is precisely the interpretation adopted by the Third Circuit
in Pilatus. The court held that specific personal

21
jurisdiction could not be exercised over the aircraft
manufacturer even though it had some contacts with
Pennsylvania (visits to the State to meet with suppliers and the purchase of more than $1 million in goods
or services from Pennsylvania suppliers), because the
plaintiff’s claims did not “arise out of or relate to”
those Pennsylvania contacts. 566 F.3d at 104. And
while the manufacturer knew and expected its planes
could end up in any State, the court held that the “socalled ‘stream of commerce’” theory upon which the
plaintiffs relied did not “provide a basis for jurisdiction” because the manufacturer did not direct the aircraft at issue through the stream of commerce to
Pennsylvania. Id. at 104-05. Because the aircraft
made it to Pennsylvania through the conduct of others, and not as a result of any actions by the manufacturer, the court held that the plaintiffs had pushed the
stream-of-commerce theory far beyond its reasonable
limits. Id. at 105-06. The court recognized that a contrary rule would confer specific personal jurisdiction
based on foreseeability alone, which “has never been
a sufficient benchmark for personal jurisdiction under
the Due Process Clause.” Id. at 105 (quoting WorldWide Volkswagen, 444 U.S. at 295). But that foreseeability standard is precisely what adoption of respondents’ theory would endorse.
Thus, if this Court endorses respondents’ streamof-commerce theory as a viable basis for specific personal jurisdiction, it should strictly limit it to the forum in which the manufacturer actively participated
within the stream of commerce (in many cases, where
the manufacturer first sells the product, as that is typically all that the manufacturer has control over). A

22
contrary rule improperly places plaintiffs, rather than
defendants, in the personal-jurisdiction driver’s seat.
III.

Respondents’ No-Causation Rule Will
Create Massive Uncertainty and Increase
Litigation over Threshold Jurisdictional
Issues.

The due-process protections underlying the purposeful availment test is intended to provide “predictability” to defendants so they can “structure their primary conduct with some minimum assurance as to
where the conduct will and will not render them liable
to suit.” World-Wide Volkswagen, 444 U.S. at 297.
But respondents’ no-causation, stream-of-commerce
rule does exactly the opposite: it simply replaces one
question (whether a causal relationship is required)
with many more.
First, if forum-state contacts not causally connected to the plaintiffs’ claims (such as unrelated marketing or sales to other individuals in the forum State)
suffice to establish specific personal jurisdiction, then
are those connections assessed as of the time of design
and manufacture (which may have occurred 30 years
earlier), the time of plaintiffs’ injury, or the time the
lawsuit was filed? If the relevant contacts are those
at the time of design and manufacture, then that
would mean a roving inquiry into activities and sales
completely unconnected to the claims at issue that are
potentially decades old. It would also mean that previous contacts, even deliberately discontinued, could
still support specific personal jurisdiction. Specific
personal jurisdiction would become a switch that, once
turned on, could never be turned off. This would make
“specific” personal jurisdiction even more persistent

23
and capacious than general jurisdiction, which may be
prospectively eliminated by abandoning all presence
and activities in a given forum. And if, in contrast,
the relevant contacts are those at the time of sale or
suit, that would mean that later actions (taken potentially by a different company, long after a merger or
acquisition) could confer jurisdiction over claims
about conduct that occurred decades earlier when the
forum contacts did not exist. Neither of these two formulations makes any sense.
Second, what quantum of unrelated evidence
would be sufficient to confer specific personal jurisdiction? Would advertisements run 10 years after the
relevant product was manufactured and 10 years before any injury occurred? Nationwide advertisements
that extend into the forum State? Advertisements
that reached a different part of the forum State than
where a plaintiff resides or the injury occurred? How
many advertisements would need to be shown?
Third, would the relevant forum contacts have to
relate to the precise product in question (e.g., the specific year, make, and model of the vehicle that is alleged defective)? Or would relation to other, similar
products (the make and model of that vehicle from a
different year—one that is not alleged to have the design defect) be enough? How about a different type of
vehicle? And if a different type of vehicle fits the bill,
then why not different products altogether?
These are just some of the myriad questions that
will occupy state and federal courts for decades (undoubtedly with inconsistent or even conflicting results) if respondents’ no-causation, stream-of-commerce theory is adopted. That would only exacerbate

24
the confusion and uncertainty that exists now in the
absence of a uniform nationwide rule.
IV.

Respondents’ Rule Would Have a Particularly Pernicious Impact on Foreign Manufacturers.

The implications of respondents’ position are even
more dramatic for the many foreign manufacturers
that sell vehicles abroad. The volume of foreign-manufactured cars that are imported to the United States
is substantial: according to the Center for Automotive
Research, 48 percent of all automobiles sold in the
United States were imported and more than $340 billion worth of imported light vehicles and parts were
sold in the United States in 2017. 9
These automobiles arrive in the United States in a
variety of ways. Sometimes foreign corporations manufacture automobiles in their home countries and export them for sale in the United States, most commonly through distributors or dedicated importers.
And they of course do so with the understanding that
if they export an automobile to Pennsylvania, they
could be subject to civil litigation in Pennsylvania for
claims arising out of that Pennsylvania conduct. But
other times, automobiles that are designed, manufactured, and sold in foreign countries are imported directly by consumers without any involvement by the
manufacturer itself. In fact, consumers even import
automobiles that were not designed or manufactured
Michael Schultz et al., U.S. Consumer & Economic Impacts of
U.S. Automotive Trade Policies 3, Ctr. for Auto. Research (Feb.
2019),
https://www.cargroup.org/wp-content/uploads/2019/02/
US-Consumer-Economic-Impacts-of-US-Automotive-Trade-Policies-.pdf.
9

25
to be legally operated in the United States—the Environmental Protection Agency (EPA) permits consumers to import nonconforming vehicles either by meeting one of several exemptions or by modifying them,
and EPA certifies Independent Commercial Importers
to modify, test, and certify vehicles for compliance
with U.S. emission standards. 10
In either event, importation of foreign-manufactured vehicles is a common occurrence—and not only
for new vehicles. In 2017, more than $1 billion in used
cars were imported to the United States. See Office of
Transp. & Mach., U.S. Dep’t of Commerce, U.S. Imports of Used Passenger Vehicles Imports, Value and
Units,
https://legacy.trade.gov/td/otm/assets/auto/
Used_Passenger_Imports.pdf (last visited Mar. 6,
2020). Indeed, EPA recently noted that it had underestimated the number of consumer-imported vehicles
by more than 1,000 percent. 11
10F

Under respondents’ rule, so long as a foreign corporation that manufactured a vehicle abroad has some
U.S. contacts, it risks being haled into state courts in
the United States even if those U.S. contacts had no
impact on the plaintiff’s claims, even if the vehicle
See U.S. EPA, Independent Commercial Importers (ICIs),
https://www.epa.gov/importing-vehicles-and-engines/independent-commercial-importers-icis (last visited Mar. 6, 2020).
11 See Information Collection for Importation of On-Highway Vehicles and Motorcycles and Nonroad Engines, Vehicles, and
Equipment, 84 Fed. Reg. 63,653 (Nov. 18, 2019). Due to a newly
centralized system for submission of forms, including those filed
by individuals importing their own automobiles, the EPA noted
that “we are now able to have a much more accurate count of the
number of forms that are being filed” amounting to “around
160,000 per year vs. the 12,000 we had been estimating” in the
past. Id. at 63,654.
10

26
entered the United States through no action of the foreign manufacturer, and even if the manufacturer did
not even design the vehicle to be legally operated in
the United States. This cannot be right: the “unilateral” action of a consumer or a commercial importer is
not supposed to be “an appropriate consideration
when determining whether a defendant has sufficient
contacts with a forum State to justify an assertion of
jurisdiction.” Helicopteros, 466 U.S. at 417 (discussing personal jurisdiction over a Colombian company).
Even if the defendant could ultimately prevail on
the merits, the respondents’ amorphous test means
that foreign manufacturers in this position at the very
least risk being subjected to protracted and expensive
jurisdictional battles in American courts. This risk is
particularly acute when such a foreign defendant
might be viewed as having deep pockets—even where
plaintiffs unquestionably could bring product-related
claims against a distributor or other defendant in U.S.
courts.
As this Court has recognized, such an “expansive
view” of personal jurisdiction poses “risks to international comity.” Daimler, 571 U.S. at 140. The United
States has expressed similar concerns. In BMS, the
United States argued if a company that conducts business nationwide—or worldwide—could be subject to
personal jurisdiction in any State where it arguably
does business bearing some peripheral relation to a
plaintiff’s claims, it “could exceed what some other nations would regard as reasonable.” U.S. Br. 27, BMS,
No. 16-466. Any personal-jurisdiction test permitting
such a result could “dissuade foreign companies from
doing business in the United States,” and risks American companies being “dissuaded from exporting

27
[their] products” for fear of a similar rule being applied against them. U.S. Br. 12, 31, Goodyear Luxembourg Tires, S.A. v. Brown, No. 10-76. The United
States has even warned that “foreign governments’
objections to some domestic courts’ expansive views of
[] jurisdiction have in the past impeded negotiations
of international agreements on the reciprocal recognition and enforcement of judgments.” Daimler, 571
U.S. at 141-42 (quoting U.S. Brief 2).
These warnings are anything but ill-founded given
the nature of American litigation. America’s partydriven style of discovery and litigation is generally
viewed by foreign companies as uniquely intrusive
and burdensome. See Societe Nationale Industrielle
Aerospatiale v. U.S. Dist. Court for S. Dist. of Iowa,
482 U.S. 522, 542 (1987) (“It is well known that the
scope of American discovery is often significantly
broader than is permitted in other jurisdictions . . . .”).
In contrast to “more restrictive and controlled” discovery rules that predominate in foreign jurisdictions,
“[t]he U.S. discovery process is unique in the liberality
of its rules, the hunger of its lawyers, and the passivity of its judiciary.” 2 Waller, Antitrust & Am. Bus.
Abroad § 15:15 (4th ed. 2018). 12 Indeed, in U.S. litigation, it is quite common for parties to engage in
wide-ranging discovery of any number of documents
In many foreign legal systems, a highly involved judge manages disclosure between the parties so as to succinctly determine
the correct answer to the questions before her, unlike the American system of discovery by right. See generally Geoffrey C. Hazard, Jr., Discovery and the Role of the Judge in Civil Law Jurisdictions, 73 Notre Dame L. Rev. 1017, 1020-22 (1998) (describing
differences in development of evidence as between American and
foreign civil law systems, and the latter’s hostility to the former).
12

28
and facts for potentially years even during the early
stages of a case—and dueling experts are often par for
the course. These differences add up to real costs,
with the U.S. Department of Commerce observing
that “U.S. tort costs as a percentage of GDP are triple
that of France and the United Kingdom and at least
double that of Germany, Japan, and Switzerland.”
U.S. Dep’t of Commerce, The U.S. Litigation Environment and Foreign Direct Investment: Supporting U.S.
Competitiveness by Reducing Legal Costs and Uncertainty 1, https://legacy.trade.gov/investamerica/Litiga
tion_FDI.pdf (Oct. 2008). Thus, companies such as
amici’s international members that do not directly sell
to American customers but may engage with U.S. distributors to sell vehicles in the United States are
rightly chary of subjecting themselves and their employees to U.S. jurisdiction.
To be sure, foreign corporations do and should expect to be compelled to answer a complaint that arises
out of actions they have taken here. But it is one thing
to allow foreign companies to be haled into the courts
of a particular State for claims arising from their conduct in that State. It is another thing entirely to allow
foreign companies to be sued in any State in which
their products were brought as a result of the unilateral decision of consumers, importers, or other third
parties to bring them here—sometimes decades after
the product was manufactured.

29
CONCLUSION
The decisions of the Montana and Minnesota Supreme Courts should be reversed.
Respectfully submitted.
JAIME A. SANTOS
Counsel of Record
STEPHEN R. SHAW
GOODWIN PROCTER LLP
901 New York Ave., NW
Washington, DC 20036
jsantos@goodwinlaw.com
(202) 346-4000
DARRYL M. WOO
GOODWIN PROCTER LLP
Three Embarcadero Center
San Francisco, CA 94111
(415) 733-6000

March 6, 2020

Counsel for Amici Curiae

